XV.

CERTIFICATE OF SERVICE

I GORDON NITKA, do swear or declare that on this July 27, 2021,1 mailed, via
UPS, to the United States Supreme Court and to the Respondent c/o the Solicitor
General of the United States at the address listed below, this PETITION FOR A
WRIT OF CERTIORARI (including appendices) and a MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS, copies of which were emailed to the
Defendant/Appellee/Respondent via email to the contacts detailed below. Pursuant
Fed. R. Civ. P. 5(b)(2(E), the parties previously consented to service via electronic
means.
Respondent c/o
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D. C. 20530-0001.
Paul Farley
Assistant United States Attorney
1801 California Street, Suite 1600 Denver, Colorado 80202
Paul.Farley2@usdoj .gov
Attorney for Respondent, Department ofEducation
cc:

Leah Butler
Assistant United States Attorney
1801 California Street, Suite 1600 Denver, Colorado 80202
Leah.Butler@usdoj .gov

I declare under penalty of perjury that the foregoing is true and correct.
EXECUTED this July 27, 2021,

GORDON NITKA

GordorrNitka
Petitioner, 'jj’ro Se

18

